U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ng Lap Seng v. United States, No. 19-1145
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 16,
2020. The government’s response is now due, after one extension, on May 18, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including June 1, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1145
SENG, NG LAP
USA

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM

